HHS/OIG-Audit--"Office of Inspector General's Partnership Efforts - Texas State Auditor's Office Report on the Department of Protective and Regulatory Services' Administration of Foster Care Contracts, (A-06-00-00046)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Efforts - Texas State Auditor's
Office Report on the Department of Protective and Regulatory Services' Administration
of Foster Care Contracts," (A-06-00-00046)
October 23, 2000
Complete
Text of Report is available in PDF format (3.85 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was made by the Texas State Auditor' Office (SAO), with staff assistance
from the Office of Inspector General, as part of the Inspector General's partnership
efforts with States to expand audit coverage of foster care programs. The SAO report
identifies some serious gaps in the Texas Department of Protective and Regulatory
Services' (TDPRS) oversight of foster care contractors which could undermine TDPRS'
efforts to ensure the safety of children in its care, and ensure that contractors
provide the expected services and comply with contract requirements. Other problems
noted included; (1) the foster care rate methodology was based upon a number of
untested assumptions, (2) the TDPRS lacks adequate assurance about the accuracy
of cost reports submitted by foster care providers, and (3) the TDPRS has not implemented
policies and procedures to verify that child placing agencies are paying their
foster homes the required minimum amount of maintenance payment. The TDPRS agreed
with the SAO's findings and has begun taking action to correct the weaknesses identified
in its administration of foster care contracts.